No. 20A138

In The

Supreme Court of the United States
GATEWAY CITY CHURCH, ET AL., Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF THE STATE OF
CALIFORNIA, ET AL.
Respondents.
TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE UNITED STATES
SUPREME COURT AND CIRCUIT JUSTICE FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE
I, Joseph R. Palmore, a member of the Bar of this Court and counsel for the amici on the
accompanying Motion by Church-State Scholars, with Attached Proposed Amicus Curiae Brief
in Support of Respondents, for Leave (1) to File the Brief; (2) in an Unbound Format on 8½-by11-inch Paper, and (3) Without Ten Days’ Advance Notice to the Parties, certify under Supreme
Court Rules 33.1(b) and 33.1(h) that the motion contains 336 words and the brief contains
4,647 words, excluding the parts that are exempted by Rule 33.1(d), and both have been
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes.
/s/ Joseph R. Palmore
Joseph R. Palmore

